                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          Office of Inspector General
                                                          Washington. D.C. 20230




August 9, 20 12

MEMORANDUM FOR:               Lawrence E. Strickling
                              Assistant Secretary for Communications and Information
                              National Telecommunications and Information Administration
                                                 '\
FROM:                         Ann C. Eilers           ~    l       O~rs
                              Principal Assistant In pector General for Audit and Evaluation

SUBJECT:                      Review of NTIA's Oversight of the Booz Allen Hamilton Contract
                              Supporting the Broadband Technology Opportunities Program
                              (OIG-12-031-M)

This memorandum reviews the effectiveness of National Telecommunications and Information
Administration's (NTIA) monitoring of the approximately $75 million Booz Allen Hamilton
(Booz Allen) contract for services related to the Broadband Technology Opportunities
Program (BTOP).

Our review's objectives were to determine (I) how NTIA ensures the receipt and quality of
the goods and services they are paying for; (2) what specific controls exist to verify invoices and
payment processes; and (3) how NTIA is mitigating risks associated with the time and materials
(T&M) contract and task orders. We found that NTIA has reasonable controls to ensure the
quality of goods and services it procured; manage the services for which it contracted; and
mitigate many of the risks associated with the contract. Nevertheless, we observed two areas
where NTIA could strengthen contract oversight controls (see "Results," below).

Background

In August 2009, the Department of Interior, o n behalf of NTIA, entered into a contract with
Booz Allen for technical expertise during the BTOP grant-making process, which was already
underway, and a system to manage and monitor grant performance and oversight. In the course
of this contract, the bureau identified the need for further support; it competitively awarded a
second contract to Booz Allen for BTOP program management and support services. The
subsequent contract for $3 I million began April 20 12 and extends through February 20 15, the
estimated completion of BTOP; the two Booz Allen contracts total approximately $1 06 million
(see appendix A for a budget summary of the contracts).

The Booz Allen contracts are predominantly T&M contracts, under which a contractor's base
payments on the number of labor hours are billed at a fixed hourly rate and the cost of
materials. The federal government considers these contracts high-risk because the contractor's
profit is tied to the number of hours worked, although T&M contracts also must incorporate a
ceiling price that the contractor exceeds at its own risk.
Results

We found that the bureau has generally met the requirements spelled out in the Federal
Acquisition Regulation (FAR) for T&M contracts. In addition, NTIA has developed and
implemented:

       • 	 workflow and review processes;
       • 	 weekly, monthly, and quarterly meetings and reports that track the progress of awards;
     .•    written policies and procedures to manage travel expenses; and
       • 	 a system of site visits to awardees and a process for classifying and acting on 

           underperforming awards. 

NTIA's risk management for the Booz Allen contract includes regular invoice reconciliation,
tracking of contractor performance, management of contract modifications to facilitate
appropriate alignment of personnel overtime, and approvals for other direct costs and travel.
Nonetheless, NTIA should consider improving contract oversight controls in two areas:

I. 	 Invoice and Payroll Reconciliation

NTIA's invoice and payroll reconciliation process relies on multiple reports routinely generated
by Booz Allen and submitted to NTIA for the bureau's approval. However, NTIA does not
independently verify payroll information in these reports against Booz Allen employee time
cards. Bureau officials stated that they verified invoices against time cards for two pay periods in
2009 but, finding no problems, they stopped. At that point, they began performing
reconciliation of these program costs principally using contractor-prepared reports, which do
not include time cards.

The FAR provides that "[t]he Contractor shall substantiate vouchers .. . by evidence of actual
payment and by ... [i]ndividual daily job timekeeping records .. . or .. . [o]ther substantiation
approved by the Contracting Officer." 1 The contract specifically enumerates the information
that Booz Allen must submit in its monthly invoices for labor- including, "as a minimum,"
identifying details for the employees and information on the amount of time worked. The
contract does not require original time cards or other original evidence of labor hours
allocated to the contract, although "as a min imum" suggests that other items may be required.

NTIA, DOl, and Booz Allen have engaged in a course of conduct consistent with the FAR's
"other substantiation" provision. However, without ongoing independent verification using
original source documents (i.e., time cards), NTIA sacrifices an effective tool to monitor invoice
and payroll accuracy, the lack of which limits the bureau's ability to manage the T&M contract
deliverables. Further, the bulk of the contract costs relate to compensation, underscoring the
importance of verifying the payroll.




1
    FAR 52.232-7(a)(5).



                                                    2
Given the inherent risks of T&M contracts and the challenges NTIA has faced in establishing
BTOP, 2 we verified a judgmental sample of randomly generated invoice charges spanning 2
years. We found no material variances. 3 Although NTIA staff has asserted that independent
verification of payroll invoices is not an efficient use of their resources, our review established
that it would not be burdensome for NTIA contracting staff to periodically verify invoices
against Booz Allen internal timesheets. A prior OIG review of BTOP also recommended that
NTIA utilize source documents in order to independently verify information. 4

2.   Independent Review

Similar to what we found with Booz Allen payroll, we are aware of no other active or pending
independent review or verification of Booz Allen source documents to support expenditures
for the two Booz Allen contracts. As such, in addition to incorporating the use of source
documents into its invoice verification process, NTIA should consider entering into an
interagency agreement with the Defense Contract Audit Agency (DCAA) to perform additional
review, such as a closeout audit of this and the subsequent Booz Allen contract. 5 DCAA
routinely audits, examines, and reviews federal contractors' accounts, records, and general
business practices and procedures to ensure they are in accordance with the FAR. In addition,
DCAA is Booz Allen's cognizant government audit agency, 6 assuring expertise specific to Booz
Allen and a well-suited additional source of independent review for the Booz Allen contracts.

We would like to express our thanks to your staff for courtesies shown to us during our
review. Please direct any questions regarding this review to Chris Rose, Senior Associate,
Recovery Act Task Force, at (202) 482-5558 or crose@oig.doc.gov, or Leon Sampson, Audit
Manager, Recovery Act Task Force, at (202) 482-0535 or lsampson@oig.doc.gov, and refer to
the report title in all correspondence.




2
 See above and U.S. Department of Commerce, Office of Inspector General, December 20, 20 I0. Top
Management Challenges Facing the Department of Commerce, OIG-11-0 15. Washington, DC: DOC O IG. The latter
describes how the broadband program creates new challenges for NTIA program management.
3
 Total Booz Allen employees have ranged from about 220 during the startup phase to about 50 as the project
matured. 

4
 See DOC OIG, November 17, 20 II. NT/A Has an Established Foundation to Oversee BTOP Awards, but Better 

Execution of Monitoring Is Needed, OIG-12-0 13-A. Washington, DC: OIG. In this audit, we recommended that NTIA 

utilize source documentation as part of its monitoring efforts. 

5
  The DCAA audit process for a closeout audit generally includes, among other things: (a) reconciling claimed 

direct costs to annual audit files or audited contractor records and verifying any questioned direct costs; (b) 

verifying that final indirect rates or contract ceiling rates have been applied to appropriate bases; (c) determining 

that the total fee billed has been calculated in accordance with contractual fee provisions; (d) determining whether 

labor hours by category meet any required level of effort; (e) verifying that the total amount claimed does not 

exceed total allowable cost; and (f) confirming the computations on the final voucher. DCAA Audit Guidance on 

Evaluation of Final Vouchers, August 3, 2009 (09-PAS-0 IS(R)). 

6
 Recipients of federal funds over a certain threshold amount have a cognizant agency for audit; Office of 

Management and Budget (OMS) Circular A- 133 § 400(a) describes cognizant audit agency responsibilities. 



                                                           3

Attachment

cc: 	   Anthony Wilhelm, Program Director, BTOP
        Aimee Meacham, Director, Program Services, BTOP
        Kathy Smith, Chief Counsel, NTIA
        Milton Brown, Audit Liaison, NTIA




                                           4
Appendix A has been omitted from publication at this time, 

  consistent with the provisions of 5 U.S.C. § 552(b)(4).





                             5

